                        ADVISORY MEMORANDUM REPORT

                   ON SBA’S FEDERAL INTRAGOVERNMENTAL

                          ACTIVITY AND BALANCES DATA


                             ADVISORY REPORT NO: 2-09

                                    MARCH 4, 2002




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of the Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                          ADVISORY MEMORANDUM
                                                                 REPORT
                                                        Issue Date: March 4, 2002
                                                        Number: 2-09



To:           Thomas A. Dumaresq, Chief Financial Officer



From:         Robert G. Seabrooks, Assistant Inspector General for Auditing

Subject:      Agreed-upon Procedures Report for Federal Intragovernmental
               Activity and Balances Verification

        Attached is Cotton & Company LLP’s agreed-upon procedures report for verification of
SBA’s Federal Intragovernmental Activity and Balances data. They noted that SBA has
unreconciled Intragovernmental Standard General Ledger account balances with three of its
trading partners. We recommend that you take actions to reconcile these differences, as
appropriate.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.

Attachment
                     INDEPENDENT ACCOUNTANT’S REPORT ON
                          AGREED-UPON PROCEDURES FOR
               FEDERAL INTRAGOVERNMENTAL ACTIVITY AND BALANCES


Inspector General
U.S. Small Business Administration


        We have performed the procedures enumerated in the attachment, which were agreed to by the
Department of the Treasury’s Financial Management Service (FMS), General Accounting Office (GAO),
and Office of Management and Budget (OMB), solely to assist you in evaluating the Small Business
Administration’s (SBA) management assertion that SBA compared Summarized Intragovernmental
Activity and Balances data to related information in its consolidated financial statements as of and for the
year ended September 30, 2001.

         We performed this agreed-upon procedures engagement in accordance with standards established
by the American Institute of Certified Public Accountants. The sufficiency of these procedures is solely
the responsibility of specified report users. Consequently, we make no representation regarding the
sufficiency of the procedures described in the attachment either for the purpose for which this report was
requested or for any other purpose.

        We noted that SBA has several unreconciled Intragovernmental Standard General Ledger account
balances with federal trading partners. This matter is discussed in the attachment.

         We were not requested to and we did not perform an examination, the objective of which would
be the expression of an opinion on the intragovernmental data described above. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

         This report is intended solely for the information and use of Treasury, GAO, and OMB and
should not be used by those who have not agreed to the procedures and taken responsibility for the
sufficiency of the procedures for their purposes.




March 4, 2002
Alexandria, Virginia
                                ATTACHMENT
                     AGREED-UPON PROCEDURES AND FINDINGS
               FEDERAL INTRAGOVERNMENTAL ACTIVITY AND BALANCES


Procedure 1. We obtained and reviewed the electronic file provided by the Chief Financial Officer
(CFO) of responses to Items (5) and (6) of the preliminary CFO Representations for Federal
Intragovernmental Activity and Balances described in the Treasury Financial Manual (TFM) and copies
of reconciliations and confirmations at Item (9). For each "Yes" response to Items (5) and (6), we
performed the following steps with the agency's trading partners.

a.      We compared amounts in the reconciliations to supporting documentation.

b.      We traced adjustments identified in the reconciliation process that required recognition on SBA’s
        books to documentation supporting recording of such amounts in SBA’s financial records.

Findings

1a.     SBA’s intragovernmental confirmation process noted Standard General Ledger (SGL) account
        balance differences with three trading partners: the Department of Treasury’s Federal Financing
        Bank (FFB), the Department of Labor (DOL), and the Office of Personnel Management (OPM).
        However, SBA did not clearly explain the differences.

Differences noted by SBA and additional explanations obtained and reviewed by the Independent Public
Accountant are detailed below:

FFB. SBA’s reconciliation process noted a $14,222,628.97 difference between FFB’s Account 5310G
balance and SBA’s Account 6310G balance, and a $1,373,458.71 difference between FFB’s Account
7110G balance and SBA’s Account 7290G balance. Based on our review, we determined these
differences are attributable to the treatment of a class of liquidating business loans (State Development
501), which were originally guaranteed by SBA and disbursed by FFB. After disbursement, SBA agreed
to take custody of this loan principal and handle the accounting for these funds for FFB. A difference in
accounting for these loans has developed between SBA and FFB. SBA does not recognize any interest
expense on these loan amounts because they were guaranty loans in origin with no related debt. FFB
recognizes interest income on these loans because its accounting methodology treats these loans as direct
loans with interest accruing on outstanding borrowings.

DOL. SBA’s reconciliation process noted a $51,578.33 difference between DOL’s Account 1310G
balance and SBA’s Account 2225G balance, and a $89,987.07 difference between DOL’s Account 5400G
balance and SBA’s Accounts 6400G and 6850G balances. SBA could not, however, identify a reason for
these differences and did not have documentation to reconcile these amounts.

OPM. SBA’s reconciliation process noted a $15,480.29 difference between OPM’s Account 1320G
balance and SBA’s Account 2213G balance, and a $637,066.56 difference between OPM’s Account
5400G balance and SBA’s Account 6400G balance. SBA could not, however, identify a reason for these
differences and did not have documentation to reconcile these amounts.

1b.     We noted no differences.
Procedure 2. We obtained and reviewed the electronic file provided by the CFO for its responses to Item
(11) of the final CFO Representations for Federal Intragovernmental Activity and Balances described in
the TFM. For each "Yes" response to Item (11), we compared the amounts, excluding intradepartmental
activity and balances, in the audited agency consolidated financial statements to such amounts in the
agency's final FACTS I and/or FACTS I NOTES reports to FMS.

We noted no differences.
